No. IN THE SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA,
Petitioner,
v.
DOMiNIC LADALE WALTON,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Kevin Joel Page, do certify that on this date, October 21, 2019, pursuant to Supreme Court
Rules 29.3 and 29.4, I have served the attached Brief in Opposition on each party to the above
proceeding, or that party's counsel, and on every other person required to be served. I have served
the Supreme Court of the United States via Federal Express, overnight. The Solicitor General and
the petitioner were each served by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530

RECEIVED
OCT 2 3 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
Counsel of Record

/s/ Kevin Joel Page
KEVIN J. PAGE **
Assistant Federal Pub Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

